No.

:

In The

Supreme Court Of The
United States
Jeremiah F. Manning,
Petitioner,
v.
Lucy J. Kim,
Respondent.
On Petition For A Writ of Certiorari
To The Supreme Court of California

APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI

Jeremiah F. Manning
Pro Se Petitioner
781 Encina Grande Drive
Palo Alto, CA 94306
(917) 742-6157

A1

APPENDIX A

A2

Filed 4/10/19 Manning v. Kim CA1/1
NOT TO BE PUBLISHED IN
OFFICIAL REPORTS
IN THE COURT OF APPEAL OF THE
STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION ONE

JEREMIAH F. MANNING,
A149875

Appellant,
v.

(San Mateo
County
Super. Ct.
No. FAM
0123613)

LUCY J. KIM,
Respondent.

Jeremiah F. Manning appeals from the
trial court’s final judgment in his
dissolution action against Lucy J. Kim
awarding Kim sole physical custody of their
three minor children and awarding
Manning spousal support. He raises
several issues that were forfeited by failing
to appeal from appealable orders or by
failing to raise them below. Manning also

A3

claims that the custody evaluator in the
case was biased against him. We reject
each of Manning’s arguments and therefore
affirm.
I.
Factual and Procedural
Background
Our ability to understand fully the
factual and procedural history of this case
is hampered because Manning failed to
include several key documents— such as
the petition for dissolution and some
relevant trial court rulings— in his
appellant’s appendix, and Kim failed to
submit either a respondent’s appendix or a
brief. We therefore summarize the factual
and procedural history as best we can
based on the record before us.
Manning is an attorney licensed to
practice in New York, and Kim is a doctor.
They were married for around 12 years and
5

.

have three children. They separated on
November 26, 2013.
These proceedings were initiated in
December 2013, and soon thereafter

A4

Manning requested Kim’s financial support
to help him pay his legal fees. A March
2014 trial court order memorializes an
agreement that Kim would take out a
personal loan of $50,000 guaranteed by a
community asset (a retirement fund), that
Manning would make monthly repayments
to Kim for his half of the loan, and that
$25,000 would be paid to an attorney on
Manning’s behalf as soon as the loan
closed. Also in March, the court appointed
a child-custody evaluator.
An attorney apparently briefly
represented Manning but then filed a
motion to withdraw in June 2014.1
Manning complained about insufficient
funds to pay for his legal fees as early as
September 2014. At that time, he was
proceeding without legal representation.
He stated in a settlement conference
1 Kim represented at oral argument that
Manning also was briefly represented by two other
attorneys in the trial court; however, the sparse
appellate record does not shed light on that
assertion.

A5

statement that he “desperately require[d]
counsel” because of “the litigious behavior
of [Kim] and her attorneys.”
The child-custody evaluator submitted a
confidential report dated September 16,
2014, recommending that the parents
share legal custody of the children, that
Kim have sole physical custody of the
children, and that the then-current
visitation plan for Manning to see the
children continue.
Also in September 2014, the trial court
ordered Kim to pay Manning $4,633 per
month for spousal support and $634 per
month for child support. Manning did not
appeal from the order.
Manning repeatedly, and unsuccessfully,
sought attorney fees. He requested
$25,000 in attorney fees by motion filed in
October 2014. Kim opposed the request,
arguing that Manning had made an
insufficient showing of need for the fees

A6

under Family Code, section 2030.2 The
trial court denied the request by order filed
in February 2015. Manning did not appeal
from the order. He likewise did not appeal
from an order in July 2015 that again
denied his attorney fees. Manning filed
another motion requesting attorney fees at
the end of July. It is unclear from the
record how the court ruled on the motion,
but Manning did not retain counsel.
During this same time, Manning filed a
request for an order to remove the custody
evaluator and to exclude her report. The
trial court denied the request.
Trial regarding custody issues began in
September 2015. On the second day of
trial, Manning again requested attorney
fees. The trial court denied the request,
stating, “So I will note for the record this is
day two of trial that there has been no
evidence or information presented to the
Court by way of financial documents with
2 All statutory references are to the Family
Code unless otherwise specified.

A7

regard to this motion for attorneyQ fees.
There have been multiple motions made in
the past. We are not going to continue the
trial. I’m not going to allow [Manning’s]
motion, so the motion is denied.” Manning
did not appeal.
At the start of proceedings on
October 28, 2015, the trial court (Judge
Susan Greenberg) made a statement about
an attorney who was apparently affiliated
with a law firm representing Kim. Judge
Greenberg stated: “Good morning. So
through this trial [attorney] Mr. [Joseph]
Crawford has not been present and it
was— I didn’t know and I didn’t expect him
to be here yesterday. So I need to state for
the record although he didn’t participate
other than to provide a couple of
documents, I need to state for the record
that about 18 months ago during my
campaign he made a thousand dollar
donation to my campaign but he has not
been participating and none of the other
attorneys made donations so there was

A8

nothing to disclose. I thought that I would
just throw it out there because he’s here
again.” Manning did not object, and Kim’s
counsel continued with her closing
argument. The issue of child custody was
submitted to the court in late October.
Around five months later, in
March 2016, Manning discovered on the
California Secretary of State’s website that
two of the law firms representing Kim had
given Judge Greenberg campaign
contributions in 2014. One contribution
was in the amount of $2,000, and the other
was in the amount of $500. Manning
requested ex parte that Judge Greenberg
recuse herself, but the motion was denied
on March 18. Manning thereafter
submitted a written request to disqualify
Judge Greenberg under Code of Civil
Procedure section 170.3, subdivision (c).
He alleged that Judge Greenberg had failed
to disclose campaign contributions as
required under Code of Civil Procedure
section 170.1. He asked the court to vacate

A9

all of its orders since September 5, 2014,
order a new trial on custody and support
issues, and then recuse itself.
The trial court on April 5, 2016, struck
Manning’s statement of disqualification.
The court concluded that (1) the statement
was untimely, (2) disqualification was not
mandatory because no individual lawyer
(as opposed to law firm) in the proceeding
contributed more than $1,500 (Code Civ.
Proc., § 170.1, subd. (a)(9)(A)), and
(3) Manning did not set forth further
specific facts that would constitute a basis
for disqualification under Code of Civil
Procedure section 170.3, subdivision (c)(1).
Manning did not challenge the order.
At the start of trial on financial issues,
on April 6, 2016, Manning renewed a
request for attorney fees. The trial court
denied it. The court noted that Manning
was still receiving around $5,200 a month
in spousal and child support and that
“[o]nce spousal support has been ordered
and is being paid it equalizes the parties [’]

A10

incomes to enough of a degree that there is
no need for attorney!] fees after that point.”
Trial proceeded and was submitted to the
court on June 1 after six days of trial.
The trial court entered final judgment on
September 16, 2016. In a detailed order
spanning 23 pages, the court ordered that
Manning and Kim share joint legal custody
of their children and that Kim be awarded
sole physical custody, with reasonable
visitation to Manning. The court provided
detailed guidance and procedures for
visitation and communications between the
parties. As for financial issues, the trial
court modified child and spousal support to
Manning, retroactive to temporary orders
entered in May 2014. He was awarded
monthly child and spousal support. The
court made further orders and findings
regarding property division.
Manning timely appealed. Kim filed a
cross-appeal that was dismissed after she
filed a request for dismissal. Manning at
first proceeded without an attorney as he

All

had in the trial court, but he retained
counsel after the trial court granted his
motion for Kim to pay his appellate
attorney fees.

II.
Discussion
A.

Manning Forfeited His Right to
Challenge the Denial of Attorney Fees
Under Section 2030.
Manning argues at length that he was
severely prejudiced by the trial court’s
denial of his request for attorney fees under
section 2030. Section 2030 provides that to
ensure that each party has access to legal
representation, the court may order one
party to a dissolution action to pay the
attorney fees of the other party. (§ 2030,
subd. (a).) At oral argument, Manning’s
counsel argued that the court awarded sole
physical custody to Kim because of
Manning’s inability to pay for an attorney.
To support the argument, he pointed to a
statement in the court’s judgment that
Manning was “often acting as an advocate
more than a father, and is over-zealous at

A12

times. It is frustrating for [Kim] and her
counsel as well as the Court at times.”
According to Manning’s counsel, this
statement proves that the court’s custody
rulings would have been more favorable to
Manning if he had not been selfrepresented. We are not persuaded. The
statement, read in context, simply
describes Manning’s overall behavior
toward his children and the court. It falls
far short of demonstrating an error in
awarding physical custody in Kim,
especially since the judgment elsewhere
makes clear that Manning did not at the
time have a permanent address in
California.
In any event, we lack jurisdiction to
review Manning’s complaints about the
denial of his requests for fees. “It is clear
that the denial of a request for pendente
lite attorney fees [in dissolution actions] is
appealable.” (In re Marriage of Tharp
(2010) 188 Cal.App.4th 1295, 1311; see also
In re Marriage of Skelley (1976) 18 Cal.3d

A13

365, 368 [when a court renders
interlocutory order collateral to main issue
and dispositive of rights of parties, direct
appeal may be taken].) “California follows
a ‘one shot’ rule under which, if an order is
appealable, appeal must be taken or the
right to appellate review is forfeited.”
{In re Bay col Cases I & II (2011) 51 Cal. 4th
751, 761, fn. 8; see also Code Civ. Proc.,
§ 906 [court not authorized to review
decision or order from which an appeal
might have, but was not, taken].)
Manning requested attorney fees several
times during the proceedings below, and
the most recent denial came in April 2016,
about five months before the entry of the
order from which Manning did appeal.
Those denials had long become final, and
Manning forfeited his challenge to them by
not timely appealing from them. (In re
Marriage of Weiss (1996) 42 Cal.App.4th
106, 119 [party forfeited challenge to order
on pendente lite attorney fees by not timely
appealing from it].)

A14

B.

Manning Also Forfeited His Right to
Challenge the Striking of His Statement of
Disqualification.
Manning next argues at length that
Judge Greenberg erred in not timely
disclosing contributions from a law firm
representing Kim and in not recusing
herself once Manning brought the
disclosure issue to her attention. This
issue was also not preserved for our review
because Manning failed to follow the proper
procedure to challenge the trial court’s
ruling. “The determination of the question
of the disqualification of a judge is not an
appealable order and may be reviewed only
by a writ of mandate from the appropriate
court of appeal sought only by the parties
to the proceeding. The petition for the writ
shall be filed and served within 10 days
after service of written notice of entry of
the court’s order determining the question
of disqualification.” (Code Civ. Proc.,
§ 170.3, subd. (d).) Under this provision,
Manning forfeited his right to review by
this court by not challenging the striking of

A15

his statement of disqualification by seeking
writ review within 10 days of the judge’s
April 5, 2016 order.
C.

Manning Has Not Established that the
Custody Evaluator Was Biased.
Manning next contends that the trial
court erred in relying on the custody
evaluator’s “incomplete” and “biased”
report, but we disagree.
Evidence Code section 730 authorizes a
court to appoint a disinterested custody
evaluator to provide the court with an
impartial custody report stating the
evaluator’s reasons after reviewing possible
custody arrangements. (In re Marriage of
Adams & Jack A. (2012) 209 Cal.App.4th
1543, 1562.) “ The job of third parties such
as . . . evaluators involves impartiality and
neutrality, as does that of a judge,
commissioner or referee.

5 »

(Ibid.)

California Rules of Court, rule 5.220, sets
forth detailed procedures for the
appointment of child-custody evaluators,

A16

and rule 5.225 lists the requirements for
evaluators.
The evaluator noted in her report the
challenges she faced because Manning
failed to follow the court’s direction to
cooperate with her, failed to timely
complete required tasks, and “did not make
scheduling appointments a priority.” Her
final evaluation was based on interviews
with Kim spanning five hours and a single
interview with Manning spanning two
hours. In its order awarding the parties
joint legal custody of their children, with
sole physical custody to Kim and
reasonable visitation to Manning, the court
acknowledged its own difficulties working
with Manning and noted that Manning’s
behavior could sometimes be frustrating.
The court nonetheless found, based on the
evidence presented, that Manning loves his
children and his children love him, and it
would not be in the children’s best interest
to significantly modify the children’s
visitation schedule with Manning.

A17

Although the standard of review in
assessing a trial court’s denial of a motion
to remove a child custody evaluator is
unclear, we cannot conclude that the court
erred in declining to strike the evaluator’s
report under any potentially applicable
standard. In In re Marriage of Adams &
Jack A., supra, 209 Cal.App.4th 1543, the
court considered whether the trial court
properly denied a party’s motion to remove
a custody evaluator based on alleged bias.
(Id. at p. 1563.) The court determined that
the question of whether the evaluator was
biased against a party was a question of
law to be reviewed de novo because the
facts were undisputed. (Id. at pp. 15631564.) Here, by contrast, the facts are not
undisputed. On appeal, Manning focuses
on various aspects of the custody report
and takes issue with the way the evaluator
characterized his participation (or lack
thereof) in the evaluation process. But the
trial court found that Manning was, in fact,
difficult to deal with. Not only are the facts

A18

here disputed, but Manning also fails to
connect any alleged bias by the evaluator to
any adverse ruling against him. He does
not specify how the court should have ruled
differently on custody issues, let alone how
the evaluator’s supposedly biased report
led to an erroneous result. Nor does he
specify any requirement in the California
Rules of Court that the evaluator or the
trial court violated.
The cases upon which Manning relies
are distinguishable. Again, in In re
Marriage of Adams & Jack A., the factsunderlying the motion to remove a custody
evaluator were undisputed, and the trial
court also made a finding that the
evaluator had “lost his objectivity.”
(209 Cal.App.4th at pp. 1563-1564.) The
court concluded that even under the most
deferential standard of review, the trial
court abused its discretion in denying the
motion to remove the evaluator for bias
given its factual finding of actual bias. (Id.
at p. 1564.) By contrast, the trial court

A19

here agreed with the evaluator’s
assessment of Manning’s behavior. And in
Leslie O. v. Superior Court (2014)
231 Cal.App.4th 1191, the evaluator
showed several signs of actual bias and
went so far as to “stepO outside her role as
evaluator to advocate against [one parent]
and to help [the other parent].” (Id. at
p. 1205.) There is no such showing that
any such advocacy occurred here. Under
the totality of the circumstances, we cannot
conclude that the court erred in declining
to strike the evaluator’s report.
D.

Manning’s Arguments Related to Kim’s
Financial Condition Were Forfeited or Lack
Merit.
We next reject each of Manning’s brief
arguments about Kim’s finances. Manning
first notes that Kim’s income and expense
declaration filed on November 20, 2014,
showed she had $93,642 in stocks, bonds,
and other assets, and a declaration filed
around a year later, on September 22,
2015, showed $104,618 in stocks and
bonds. Then on March 15, 2016, Kim

A20

reported $0 in stocks, bonds, and other
assets. Manning contends that “[t]his
dissipation of assets while a divorce was
being litigated, without notice to
Mr. Manning or court approval, appears to
be highly inappropriate.” As Manning
himself acknowledges, however, the issue
“was never even mentioned” below. He
says the fact the issue was not raised below
was another reason he would have
benefited from having counsel, and he
argues the money “should have been
accounted for in the judgment.” Having
failed to raise the issue in the trial court,
Manning forfeited the issue for appellate
review.
Manning next challenges the temporary
spousal order entered in July 2014. The
temporary spousal support order was
appealable, but Manning did not seek
appellate review. (In re Marriage of
Skelley, supra, 18 Cal.3d at pp. 369-370; In
re Marriage of Winter (1992) 7 Cal.App.4th
1926, 1932.) He therefore forfeited his

A21

right to challenge it. (In re Marriage of
Weiss, supra, 42 Cal.App.4th at p. 119.)
Finally, Manning argues that the final
judgment must be reversed because the
support provisions “did not account for
Dr. Kim’s rental income.” (Unnecessary
capitalization and bold omitted.) This onepage argument fails to include factual
detail. Kim testified that persons named
Maria and Steven Kang own two
properties, that Kim lived at one of those
properties, and that she rented out a
cottage on the property. She first rented it
to a couple who paid $3,200 per month, and
she later rented it to someone else for
$3,300. In March 15, 2016, Kim listed
$3,200 as an amount of expenses paid by
others. The trial court concluded that
Manning did not have an interest in any
rents Kim received because they post-dated
the couple’s separation. Manning does not
challenge that finding, but he argues that
the court should have factored in the
monthly rental income Kim received when

A22

calculating support payments. He
contends that Kim listed her rental income
on her income and expense declaration as
expenses paid by others, which was part of
her and her attorneys’ “consistent pattern
of concealing wealth to avoid paying
Mr. Manning a fair amount in spousal
support.”
The record and briefing are far too
undeveloped for us to accept the
contention. The record does not reveal the
nature of the $3,200 Kim listed as an
expense, much less that it was actually a
reference to rental income. And Manning’s
briefing provided no analysis on how the
amount affected the court’s calculation or
how a proper calculation would affect the
amount of his support. At oral argument,
Manning’s counsel referenced the
DissoMaster calculation attached to the
judgment, but this reference fails to satisfy
Manning’s appellate burden. Without
providing further context—such as
explaining the nature of the expense with

A23

citations to the record, describing whether
the issue was litigated below, and
analyzing how the inclusion of any income
would alter support payments—Manning
fails to demonstrate error. (City of
Lincoln v. Barringer (2002)
102 Cal.App.4th 1211, 1239 & fn. 16 [where
issue not adequately supported by citations
to record, court may decide appellant has
waived issue rather than scour record
unguided].)
III.
Disposition
The judgment is affirmed. Kim shall
recover her costs on appeal.

s/P.J. Humes/
Humes, P.J.
WE CONCUR:
s/Marguilies, J./
Margulies, J.
s/Banke, J./
Banke, J.

A24

APPENDIX B

A25

IN THE COURT OF APPEAL OF THE
STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION ONE

JEREMIAH F. MANNING
A149875

Appellant,
v.

(San Mateo
County
Super. Ct.
No. FAM
0123613)

LUCY J. KIM,
Respondent.

The petition for rehearing is denied.
Dated: April 30, 2019
s/P.J. Humes/
Humes, P.J.
WE CONCUR:
s/Marguilies, J./
Margulies, J.
s/Banke, J./
Banke, J
Manning v. Kim A149875

A26

APPENDIX C

A27

Court of Appeal, First Appellate District,
Division One - No. A149875
S255905
IN THE SUPREME COURT OF CALIFORNIA
En Banc

Jeremiah F. Manning,
Appellant,
v.
Lucy J. Kim,
Respondent.

The petition for review is denied.

Dated: June 26, 2019

s/Cantil-Sakauye
Chief Justice

A28

APPENDIX D

A29

SUPERIOR COURT OF THE STATE OF
CALIFORNIA
COUNTY OF SAN MATEO
Jeremiah F. Manning,)
)

Petitioner,

)CaseNo. F0123613
)

vs.

)
)

Lucy J. Kim,

)
)

Final Judgment
after Trial

)

Respondent

)

The matter of child custody came on for trial
in Dept. 3 before the Honorable Susan L.
Greenberg, beginning September 28, 2015
and submitted to the Court for decision on
October 28, 2015, after seven days of trial.
Petitioner appeared in pro per. Respondent
appeared with her counsel, Abby O'Flaherty

A30

from the firm Hanson, Crawford and Crumm,
and various other attorneys from that firm
including Mr. Crawford. After review of the
testimony and evidence presented at trial,
the Court makes a permanent order
regarding child custody and visitation. The
Court understands it has the widest
discretion in doing so, and that there is no
presumption in favor of either joint or sole
legal or physical custody. The Court
understands that the applicable standard is
the best interests of the children, and that it
is the Court's duty to assure the children's
health, safety, and welfare, and also to assure
frequent and continuous contact with both
parents.

A31

The Court appreciated the Respondent's
concerns about the difficulties she has
experienced in working with the Petitioner,
the inconsistencies, the lack of
communication, and difficulties
communicating. The Court has personally
seen evidence of those difficulties during the
time that it has presided over this case, and
it has seen evidence of those difficulties while
Judge Richard DuBois presided over this
case. The Court feels that in some respects,
Petitioner is often acting as an advocate more
than a father, and is over-zealous at times. It
is frustrating for the Respondent and her
counsel as well as the Court at times. Based

A3 2

on the evidence and testimony presented at
trial, the Court makes the following findings:
The Court fully believes that the Petitioner
loves his children and his children love him.
It is clear to the Court that the Respondent
has been the primary caretaker of the
children for many years and that she loves
them and they love her.
There is evidence that Petitioner has not
acted in the best interests of his children at
times. There is also evidence that Respondent
has not acted in the best interests of her
children at times. The Court has yet to see a
perfect parent who always acts in their
children's best interests. The Court finds that
Petitioner is not so distant - both

' A33

geographically as well as emotionally and
physically - from this children as to be
unknowledgeable about their health,
education, safety and welfare needs.
The Court finds that it is not in the best
interests of the children to deny them the
input and wisdom of Petitioner as to their
health, education, safety and welfare.
The Court finds that it is not in the best
interest of the children to significantly modify
the current visitation orders to such a degree
as to cause trauma to the children, especially
Paxton, the youngest, who is just about to
turn seven years old. Consistency and routine
are critical for these minor children to feel

A34

secure in their lives and to prosper and grow
into young adults.
The Court finds that a modification from the
current actual visitation that Petitioner has
with his children to ten days per month, all
at once, is too drastic, and potentially
traumatic for the minor children.
With regard to Dr. Press's testimony and
recommendations, dated September 16, 2014,
the Court makes the following findings: Dr.
Press recommended the parties share joint
legal custody of the minor children and that
Respondent have sole physical custody of the
minor children. She made this
recommendation for joint legal custody after
approximately five hours of interviews with

A35

the Respondent and only two hours of
interviews with Petitioner. The Court notes
that despite hearing significantly more
information from the Respondent than the
Petitioner, Dr. Press still made a
recommendation for joint legal custody.
The Court finds that there is no present
evidence that Respondent's father (Dr. Yeong
Kim) is a current threat or has been a threat
to the parties' minor children despite the
evidence of his past abuse of Respondent. The
past abuse is extremely remote in time and
there has been no current evidence that
would indicate to the Court that the minor
children are at risk when in the presence of
Respondent's father.

A36

The Court makes the following Orders:
The parties shall share joint legal custody of
the minor children. Respondent is awarded
sole physical custody of the minor children,
with reasonable visitation to Petitioner.
Effective December 1, 2015, and subject to
the one-time modification detailed herein
Petitioner's visitation shall be each month
from the first Friday after school to the
Monday following that first Friday, either at
the end of school or 5 :00 pm if school is not
in session, for approximately three
consecutive days. Two days later, petitioner
shall have a dinner visit with the children on
Wednesday from 4:00 pm to8:00 pm. One day
after the Wednesday dinner visit, Petitioner

A3 7

shall have his second visitation beginning
Thursday after school, or 5 :00 pm if school is
not in session, through the following Sunday
at 5:00 pm, or Monday at 5:00 pm if school is
not in session on the Monday, for
approximately 3 or 4 consecutive days.
The Court grants a one-time modification to
Petitioner's visitation for the month of
December 2015 only. This modification is to
allow Respondent to attend her brother's
wedding in Chicago with the children.
Petitioner's December 2015 visitation shall
be the second and third weekends, rather
than the first and second weekends. Thus, for
the

A38

month of December of 2015 only, Petitioner
shall have his visitation as follows:
Beginning Friday December 11, 2015, after
school to Monday December 14, 2015, at the
end of school, a dinner visit on Wednesday
December 16, 2015 from 4:00 pm to 8:00 pm,
and Thursday December 17, 2015, at the end
of school through Sunday December 20, 2015
at 5:00 pm, at which time Respondent's
Christmas vacation shall commence pursuant
to the orders herein. Petitioner must give ten
( 10) days-notice to respondent if he is going
to cancel a visit. This does not negate the
other notice requirements as detailed herein.
With regard to the first Friday of Petitioner's
monthly visitation, if Petitioner does not pick

A39

up the children by the next day, Saturday, at
8:00 pm the entire weekend is forfeited. This
shall only be pennitted in an emergency and
shall not happen more than two times per
year. As to Petitioner's Wednesday visits, if
he is more than one hour late, the visit is
forfeited. As to Petitioner's second weekend,
he may have a caregiver pick up the children
after school on Thursday, but if he is not able
to be with the children by 9:00 pm on that
Thursday, the entire weekend visit is
forfeited.
If Petitioner cancels a visit, there shall be no
makeup time permitted, and Petitioner shall
be solely responsible for both finding
childcare and payment of all associated costs,

A40

particularly if Respondent is on-call. If the
parties agree to a modification of visitation,
then there shall be makeup ti.me.
If the Petitioner misses more than two
Wednesday dinner visits within six months,
then his dinner visits shall immediately
terminate.
If within a one-year period, the Petitioner
misses, without ten days-notice, two of the
first weekends or two of the second
weekends, or both, then, without further
order of the Court, Petitioner's visitation
schedule shall immediately become one
weekend per month from the first Wednesday
after school through the following Monday
return to school, and no additional dinner

A41

visits shall be permitted. This order does not
apply if the Petitioner misses the first and
second weekend in the same month. Within a
one-year period, there must be two misses of
a first visit in two separate months, or two
misses of a second weekend in two separate
months, or one miss of a first weekend and
one miss of a second weekend in two separate
months.
After six consecutive months of consistent
visits between Petitioner and his children in
which there are no missed visits or forfeits,
including any additional vacation or holiday
time for Petitioner, then beginning with the
first weekend of that seventh month,
Petitioner's visitation shall modify to begin

A42

the first Friday of the month beginning after
school, or 5 :00 pm if school is not in session,
for ten consecutive days to the following
Monday return to school, or 5 :00 pm if school
is not in session. The requirement for six
months of consecutive and consistent visits
includes the Wednesday dinner visits.
Therefore, all visits outlined for Petitioner in
this order must be fully completed six months
in a row for the new visitation schedule to
take effect.
Petitioner's summer vacation shall be as
follows: Petitioner shall have one vacation of
two weeks in length, and one vacation of one
week in length. Each vacation shall be nonconsecutive. There must be a minimum of

A43

two weeks in between those two vacations. In
even years, Petitioner will have first pick of
dates for his two week and oneweek
vacations. In odd years, Respondent will have
first pick of dates for her vacation time. The
choice of dates must be communicated to the
other parent, in writing, via email no later
than March 15th of that year. If that
deadline is not met, the other parent gets
first choice of vacation dates and must choose
and communicate that choice to the other
parent by April 1st of that same year.
For all exchanges other than at school, the
receiving parent shall pick up from the other
parent, so long as the. other parent is located
within San Francisco, San Mateo County, or

A44

Santa Clara County but not south of San
Jose. The parties must text each other if they
are going to be more than 10 minutes late for
a pick up. The request for each parent to
have their own set of sports equipment is
denied. The parents shall transfer all
necessary sports equipment for the children
at the time of the custodial exchange.
If a child or the children are away from home
for an overnight of 24 hours or more, other
than for a sleep over with a friend, the
parties shall exchange addresses and phone
numbers of where the child(ren) will be.
In odd years, mother will have the children
for their ski week break. She will also have
the first half of Christmas break, which shall

A45

include Christmas Eve and Christmas Day.
The exchange shall be on a Saturday at 9:00
am unless that is Christmas Day, then it will
be on Sunday at 9:00 am. This order is made
with the understanding that Christmas
break begins on a Friday after school before
Christmas and resumes on a Monday
morning after New Year's Eve, and is usually
approximately 17 or 18 days in length. In odd
years father will have the seem Id half of
Christmas break, which will include both
New Year's Eve and New Year's Day. In odd
years Father will also have spring break and
Thanksgiving break. In even years, this
holiday schedule reverses.

A46

All holidays, other than Christmas break
which is spelled out more specifically herein
above, shall begin at 9 :00 am the day after
the last day of school and shall end at 5 pm
on the Sunday before school resumes. This
applies to spring break, ski week, and
Thanksgiving break.
Mother shall be with the children on
Mother's Day from the Saturday before
Mother's Day at 8:00 pm through and
including Sunday, the day of Mother's Day,
at 8:00 pm. Father shall be with the children
on Father's Day from the Saturday before
Father's Day at 8:00 pm through and
including Sunday, the day of Father's Day, at
8:00 pm.

A47

Subject to exception for Paxton's birthday as
detailed herein, for the children's birthdays,
if Petitioner is present in the San Francisco
Bay Area on the actual day of a minor's
birthday, he may have the children for a fourhour block of time on that child's birthday.
The time shall be from 4:00 pm to 8:00 pm if
the child's birthday falls on a school day, or
from 9:00 am to 1:00 pm if the child's
birthday falls on a weekend.
When Paxton's birthday falls on a school day,
the parties shall alternate timeshare with the
children to allow each the opportunity to take
Paxton trick or treating. In even years,
beginning in 2016, Petitioner will have the
option to spend Paxton's birthday with him

A48

from 6: 15 pm to 9: 15 pm, and if Petitioner
exercises this option, Respondent will
have the children from 3: 15 pm to 6: 15 pm.
In odd years, this will reverse and respondent
will have the children from 6:15 pm to 9:15
pm and Petitioner has the option to visit from
3:15 pm to 6:15 pm. Petitioner will provide
Respondent with at least seven (7) daysnotice if he intends to be present on a child's
actual birthday.
If Petitioner is not present in the San
Francisco Bay Area on a child's actual
birthday, the Petitioner will celebrate that
child's birthday with all of the children
during his weekend or other visit closest to
the actual birthday of that child.

A49

The request for additional holidays to
Petitioner is denied. He will certainly always
have the children on Labor Day, as well as
other Monday holidays that fall within the
first two weeks of any given month. In 2015,
for example, that would include Columbus
Day in October. He will often have the 4th of
July. The Court will not add additional
holidays such as Memorial Day.
Each parent shall take the children to their
scheduled practices, games, and school events
when the children are with that parent. If
there is a request for a play date and/or
birthday party during a parent's custodial
weekend, each parent shall take each child to

A50

a minimum of one play date and one birthday
party per weekend. The custodial parent
shall be responsible for purchasing and
bringing a gift and card to birthday parties.
This shall not preclude either parent from
bringing the child(ren) to more than one play
date or birthday party per weekend. The
following extracurricular activities are
approved by this Court for the minor
children:
Quinn: Football, basketball, tennis, hip hop
dance, piano, soccer, and Canada College
math class.
Stella: Soccer (A Y or club), lacrosse, ballet,
gymnastics, ice skating, horseback riding,
piano and voice.

A51

Paxton: Soccer, basketball, lacrosse, chess
club, Kumon, and a musical instrument.
The Court also preapproves theater for any of
the children.
Absent unusual circumstances, no more than
three sports or major activities per child, per
season, will be permitted. The Court
distinguishes between sports or activities
that require more than one participation per
week, and those that can be added on over
and above the three sports or major activities
per season as follows:
Each child shall not participate in more than
three activities in which there are multiple
practices and/or games per week at any given
time ("sports or major activities"). This would

A52

include activities such as football, basketball,
lacrosse, or soccer. In addition to each of
those three sports or major activities that
take significant time per week, each child
may take as many other additional activities
as the child desires that will only involve a
once-a-week participation of one hour or less
per week. This presumably would include
voice, piano, playing a musical instrument,
and chess-club.
Horseback riding, if not on a consistent basis,
is not included in the maximum of three
sports or major activities if it is a few times
during the season and will not be precluded
by the three sports or major activities rule.
Theater, if only a once per week rehearsal, is

A53

also not included in the maximum of three
sports or major activities. If theater is more
than once per week it will count toward the
three sports or major activities rule.
Educational activities that are part of or
tangential to school curricular shall not be
prevented by this order. Thus, for example
the children are not precluded from
additional science fair projects, Kumon, or
Canada math classes.
With respect to extracurricular activities for
the children, other than Canada math class
and Kuman, the following applies: Mother
shall give father 48 hours' notice if a child
wants to participate in an activity other than
those pre-approved by the Court, or if a child

A54

wishes to delete one or more of said activities.
This notice is informational only. And unless
a child is engaged in more than three sports
or major activities, as previously defined, this
change in extracurricular activities for that
child shall become the approved
extracurricular activity without further order
of the Court.
All communications between the parties shall
be by e-mail or text message, absent an
emergency. Communications for an
emergency shall be by phone call as soon as
possible. Urgent communications shall be by
text and shall require a response within one
hour. If there is no response within one hour,
the parent shall take whatever action is

A55

necessary to protect the child(ren) with the
urgent situation. Non-urgent and
non-emergency communications shall be by email and shall require a response within 48
hours. Because mother has sole physical
custody of the children, if she does not receive
a response within 48 hours then consent shall
be deemed given to what was requested in
her e-mail. This provision may not be used
for major decisions, for example, choice of
school, removing the children from the state,
removing the children from the country, or a
move away. This provision may be used for
minor decision making purposes, for example,
vaccinations additional to those ordered
herein, or a child obtaining a driver's license.

A56

Neither parent may remove the children from
the State of California without Court order or
written permission of the other parent.
Permission is preapproved and granted by
this Court for either party to travel within
the 50 United States for any visits seven days
or more in length when all three children are
not in school. "In school" refers to actual
school days and does not include scheduled
extracurricular activities.
Neither parent may remove the children from
the United States without Court order or
written permission of the other parent.
Each parent shall be permitted to take the
children out of school for one day per
academic year. This only applies once for

A57

each parent per academic year, thus, if a
parent chooses to exercise this provision and
takes tine children out of town at a time
when only one child is in school, that shall
constitute that parent's one day, and that
parent will not be permitted to do so again
until the next school year.
Respondent shall obtain all school and state
required vaccinations for the children
without further permission, agreement, or
participation of the Petitioner. The timing
shall be at the mother's sole discretion and
within the guidelines of the school and state
requirements.
Neither parent shall disparage the other in
front of the children, and each shall make

A58

good faith efforts to ensure that others,
including friends and family, do not do so.
Neither parent shall discuss this litigation
with any of the minor children.
To maintain the status quo, and as the
parent with sole physical custody, mother
shall keep the children registered annually in
their present school district, and keep them
with the same doctors, dentists, and other
medical providers that are presently treating
them, unless a treating professional retires.
This order is without prejudice to Petitioner's
motion scheduled for December 1, 2015,
regarding high school choice.

A59

The request for a protective order against the
Respondent's father (Dr. Young Kim) is
denied.
The matter of financial issues came on for
trial in Dept. 3 before the Honorable Susan L.
Greenberg, beginning April 6, 2016 and
submitted to the Court for decision on June 1,
2016, after six days of trial. Petitioner
appeared in pro per. Respondent appeared
with her counsel, Abby O'Flaherty of Hanson
Crawford Crumm and various other
attorneys from that firm including Mr.
Crawford. After review of the testimony and
evidence presented at trial, the Court makes
the following orders:

A60

The Court finds that the parties' date of
separation is November 26, 2013. The
Petitioner initially pled November 26, 2013
as the date of separation and did not file an
amended Petition alleging a different date;
therefore the Court finds this case is factually
different from the In Re Marriage of Davis
case.
Petitioner's request to retroactively modify
the temporary child and spousal support
orders is granted. The Court finds that the
jurisdictional issue raised by the Respondent
does not prevent the Court from having
jurisdiction to retroactively modify the
temporary support orders. Specifically,
Petitioner's unsuccessful request to modify

A61

between the initial support orders and the
current order does not equate to the Court's
loss of jurisdiction, even though the orders
denying modification did not contain
language continuing to reserve jurisdiction
over temporary support. Jurisdiction to
modify the temporary orders was reserved
retroactive to May 1, 2014. This is contained
in the Stipulation and Order filed May 22,
2014. The Court also finds that there is
substantial evidence to support a retroactive
modification of both child and spousal
support. This evidence includes, but is not
limited to, evidence that the income inputs
used for each party were incorrect in said

A62

Stipulation and Order by several thousand
dollars.
Effective May 1, 2014, the Court modifies
temporary child and spousal support as
follows:
Starting with the DissoMaster attached to
the Stipulation and Order filed May 22, 2014,
the Court modifies Respondent's income to
$35,451 per month, and makes a further
modification to also include dividend and
interest income in the amount of $800 as
reported for 2014 on Respondent's Income
and Expense Declaration. Effective May 1,
2014, the correct child support amount for
the three minor children is $2,201 and the
correct spousal support amount is $7,411 per

A63

month, for a total of $9,613 per month,
pursuant to the DissoMaster attached hereto
as Exhibit A and incorporated herein by this
reference.
Pursuant to the Stipulation and Order filed
May 22, 2014, Respondent paid Petitioner
spousal support of $4,739 and child support
of $3,942 (total $8,681) for the month of May
2014. Pursuant to said Stipulation and Order
Respondent paid Petitioner spousal support
of$5,731 and child support of$ 1,785 (total
$7,516) for the month of June 2014.
Therefore Respondent has underpaid
Petitioner $932 for May 2014 and $2,097 for
June 2014.

A64

Pursuant to the Findings and Order after
Hearing filed September 24, 2014,
Respondent paid Petitioner spousal support
of $4,633 and child support of $634, for a
total of $5,267 per month, beginning July 1,
2014. The Court finds that Respondent's
income for the 2015 calendar year was in fact
slightly greater than the amount used in the
2014 calculation, but not enough to make as
substantial difference in the support
calculations. Therefore Respondent has
underpaid Petitioner $2,778 per month for
spousal support and $1,567 per month for
child support (total $4,345) for 16 months
through October 31, 2015, for a total
underpayment of $25,072 for child support

A65

and $44,448 for spousal support for the 16
month period from July 1, 2014 through
October 31,2015.
Effective November 1, 2015, the Court
increases Petitioner's self-employment
income to $50,000 per year. Respondent's
information for the calculation remains the
same. Effective November 1, 2015, child
support for the three minor children is $1,631
per month, and spousal support is $6,961 per
month, for a total of $8,592 per month,
pursuant to the OissoMaster attached hereto
as Exhibit B, and incorporated herein by this
reference. The Court implements a Bonus
Table, attached hereto as Exhibit C and
incorporated herein by this reference, for the

A66

first six months of the calendar year 2016 as
it applies to both child and spousal support.
Therefore Respondent has underpaid
Petitioner $2,222 per month for spousal
support and overpaid Petitioner $2,311 per
month for child support for 8 months through
June 30, 2016, for a total overpayment of
$18,488 for child support and underpayment
of $17776 for spousal support for the 8 month
period from November 1, 2015 through June
30, 2016. Effective July 1, 2016, the first day
of the calendar month after Petitioner
completed six months of visitation pursuant
to this Court's orders herein, the Court
modifies Petitioner's timeshare to 40%.
Effective July 1, 2016 child support for the

A67

three minor children shall be payable by
Respondent to Petitioner in the amount of
$2,466 per month, pursuant to the
DissoMaster attached hereto as Exhibit D
and incorporated herein by this reference.
Said child support shall be payable by
Respondent to the Petitioner on the 1st of
each month.
The Court implements the Bonus Table
previously identified as Exhibit B for the
second half of the calendar year 2016, and
forward, as it applies to child support. In
making this order, the Court modifies
Petitioner's income to $90,000 per year, the
amount to which Petitioner stipulated.
Respondent's information in the calculation

A68

remains the same. The Court notes that
according to Respondent's declaration filed
April 28, 2016, paragraph 39, her income for
the first 3.5 months of 2016 is substantially
greater than that of 2015. The Court finds
that although there was a vocational
evaluation that held some weight,
Petitioner's testimony was credible as to his
ability to earn from the date of separation
until now, given a number of factors besides
his past history as detailed in the Court's
permanent support analysis below, but also
given his self-representation for a large
period of time in this case.
The Bonus Table true-up shall occur on
February 15th of each year, on which date

A69

Respondent shall mail a copy of her W-2 for
the preceding calendar year to Petitioner
along with her check payable to Petitioner for
the correct percentage amount, pursuant to
the Bonus Table herein, of any income over
and above that used for Petitioner in the
Wages and Salary Column of Exhibits B and
C herein, as applicable. The child support
add-on order made December 9, 2014,
remains in full force and effect.
Each party shall keep all personal property
in his or her possession, except that
Petitioner shall provide to Respondent and
use his best efforts to locate and copy the
following items: family photos and videos on
the laptop in Petitioner's possession; photo

A70

albums of Quinn. Petitioner shall also
provide to Respondent the children's
Christmas stockings and ornaments that
were specifically for the children. There shall
be no equalizing payment as to this property
division.
The 2008 Acura MDX presently in
Petitioner's possession is awarded to him as
his sole and separate property. Effective upon
expiration of the current auto insurance
policy in November 2016. Petitioner must
obtain his own car insurance for this vehicle.
He must also transfer title of this vehicle into
his own name forthwith.
The 2004 Honda Pilot and 2012 Acura NIDX
in Respondent's possession are awarded to

A71

her as her sole and separate property. There
will be no equalizing payments owed for the
foregoing vehicles. The Court finds that the
2002 Subaru Outback had zero value and
was disposed of properly by the Respondent.
The community interest in Respondent's
retirement accounts, specifically the 40 1 (k),
the deferred compensation account, and
pension, shall be divided equally by Qualified
Domestic Relations Order, to be prepared by
Moon, Schwartz & Madden. All associated
costs shall be shared equally by the parties.
Respondent's life insurance policy provided
through her employment is confirmed to
Respondent as her sole and separate

A72

property, without offset or reimbursement to
Petitioner.
The Court finds that the community does not
have any interest in the Fidelity Investment
account and Fidelity IRA in Respondent's
name, and both are confirmed to Respondent
as her sole and separate property.
All bank and checking accounts, and the like,
not specifically detailed herein, in the sole
name of a party, is confirmed to that party as
his or her sole and separate property, without
offset or reimbursement. All debt, not
specifically detailed herein, in the sole name
of a party, is confirmed to that party as his or
her sole and separate debt, without offset or
reimbursement.

A73

The Court finds that there is not community
interest in the Kim Family Limited
Partnership ("KFLP"), or in Respondent's
father’s (Dr. Young Kim) estate. The Court
specifically finds that the tax return filings
with regard to the KFLP were not dispositive
and not persuasive to transmute the KFLP to
something in which the community would
have an interest.
Respondent shall amend her 2011, 2012 and
2013 tax returns as necessary to accurately
reflect the allocation of the distributions from
the Kim Family Limited Partnership. The
Court retains jurisdiction to make the
Petitioner whole should he incur any tax

A74

liability as a result of Respondent's tax filings
in said years.
The Court finds that Respondent's shares in
Kaiser Permanente are community property,
which shall be divided equally between the
parties. The parties shall cooperate to take
any action or prepare any order necessary to
effectuate the division of these shares. In the
event the shares cannot be divided, or cannot
be divided until Respondent's retirement, the
Court retains jurisdiction over this asset.
The Court finds that Respondent's home
purchase benefit through her employer is not
divisible and presently has no value, but the
Court retains jurisdiction over this asset in

A75

the event that it attains a value and does
become divisible.
The Court finds that Petitioner does not have
an interest in any rents received by the
Respondent, as they are post-date of
separation, and therefore not divisible by the
parties.
With regard to the security deposit on the
family residence, the costs to restore the lawn
and the entire security deposit refunded are
both awarded to Respondent, with no
equalizing payment due.
The two sanctions awards imposed against
Petitioner in the amounts of $3,000, plus
interest of S 94 .25 through June 30, 2016,
and $5,000, plus interest of $569 .86 through

A76

June 30, 2016, shall be awarded on
Respondent's side when computing the
equalizing payment. With regard to the
40l(k) loan, all monthly repayments owed
since September 1, 2014 through June 30,
2016, plus interest of $973.32 as set forth in
Exhibit G attached hereto and incorporated
herein by this reference, is awarded on
respondent's side when computing the
equalizing payment. Petitioner's one-half of
the remaining balance of the 401(k) loan, or
$17,589.44 as of July 1, 2016, shall also be
awarded on Respondent's side when
calculating the equalizing payment, which
shall fulfill Petitioner's remaining obligation
on this debt.

All

Petitioner shall pay Respondent for the costs
of his car insurance that Respondent paid
through November 2016, in the amounts of
$1,062.75 and $1,975, for a total of $3,037.75.
Petitioner shall pay respondent $17,754.37
for his one-half share of child support add-ons
incurred and owed as of April 3 0, 2016.
Pursuant to the foregoing orders, including
the Court's orders on retroactive temporary
child and spousal support and property
division, the equalizing payment owed by
Respondent to Petitioner is $12,865, as set
forth on the Propertizer worksheet attached
hereto as Exhibit E and incorporated herein
by this reference.

A78

None of the foregoing equalizing payments,
QDROs, or orders to divide Kaiser shares
shall be prepared or ordered forthwith. Said
orders are stayed pending the briefing on
attorney fees and costs and sanctions, and
orders thereon.
As to permanent spousal support, the Court
makes the following findings:
As to the marital standard of living, the
parties had an upper-middle class standard
of living. The argument that it was only
middle-class is not accurate. Although there
was only one income for the household, it was
larger than the two incomes of middle-class
families put together. The parties lived in a
very affluent area, paying high rent; the

A79

children participated in many activities that
were not inexpensive; the parties took
vacations; and the vast majority of time there
was a full-time au pair for the children.
As to the parties earning capacity, the
Respondent has at least three to four times
the earning capacity of the Petitioner. The
Court finds that the Petitioner can now
become more fully employed to reduce the
deficit between the parties, but his present
earning capacity has clearly been impaired
by periods of unemployment, to some degree
for domestic duties, to some degree not, and
to some degree for the move from New York
to California having only a New York bar
license.

A80

The Court finds Petitioner clearly helped
support Respondent to obtain her M.D. and
obtain her position here in California as a
surgeon, knowing his New York Bar
admission would be an issue once he got here
and he would not be, able to practice
immediately as an attorney.
The Court finds the Respondent has the
ability to pay spousal support and Petitioner
has a present need for spousal support. The
obligations and assets of the community have
been appropriately divided by this order.
The marriage is one of long duration,
approximately 11 years and nine months.
The Petitioner does have the ability to work
and care for the children at the same time

A81

during his custodial time to some degree. As
the children get older, it will become easier
for Petitioner to both work and care for the
children; but for now, the Court finds that
Petitioner can only work part-time, not full­
time, during his custodial time.
Presently, both Petitioner and Respondent
are young and healthy. Although there is a
possibility that Petitioner's health may
deteriorate due to Lyme disease, at this point
it is speculative and the Court is not making
orders that deal with that speculation.
There was no evidence presented as to
domestic violence.
Spousal support shall be deductible by
Respondent and taxable to Petitioner. In

A82

balancing the hardships between the parties,
the Petitioner does need spousal support at
this time. The Court finds that Petitioner will
be able to become self-supporting over time.
Now that these very long, intense trials have
concluded, based on Petitioner's own
testimony, he will be able to focus more on
his law practice, networking, and be able to
increase his earnings and income over time.
There was no evidence presented as to
criminal convictions.
There were no other factors considered by the
Court.
Permanent spousal support shall be effective
July 1, 2016, and will be payable by
Respondent to Petitioner in the amount of

A83

$5,000 per month payable on the 1st of each
month. No termination date shall be set, and
spousal support shall continue until either
party's death, Petitioner's remarriage, or
further order of the Court.
Effective January 1, 2017, monthly support
shall automatically step down from $5,000
per month to $4,000 per month, based upon
the Court's finding that said step down is
appropriate based on Petitioner's testimony
that he will be able to increase the revenue
from his law practice. The Court will hold a
review hearing on January 17, 2017 at 9 :00
am, at which time either party may argue
that the step down is not the correct amount
or there should be no step down. If the

A84

parties are satisfied with the step down, the
review may be cancelled.

IT IS SO ORDERED.
Dated: September 14, 2016
s/SLG/
Susan L. Greenberg,
Superior Court Judge

A85

APPENDIX E

A86

SUPERIOR COURT OF THE STATE OF
CALIFORNIA
COUNTY OF SAN MATEO

)

IN RE THE MARRIAGE OF
JEREMIAH F. MANNING,

Petitioner,

LUCY KIM

)Case No.
)FAM0123613
)
PETITIONER’S
IREQUEST FOR
^JUDICIAL
IDQ/RECUSAL
)AND NEW TRIAL
)
)

Respondent.

)
)

TO THE ABOVE ENTITLED COURT AND
RESPONDENT/RESPONDENT'S COUNSEL
PLEASE TAKE NOTICE that on April _, 2016 at
__ a.m./p.m. or as soon thereafter as the matter may
be heard in Courtroom 6A of Department 3 of the
above-entitled court, the Petitioner will move this
Court first to vacate all of its orders in this case since
September 5, 2014, then to order a new trial with
regard to custody and support and related issues,
and then to recuse itself for appearance of

A87

impropriety, mandatory disqualifying cause and/or
disqualify itself as a timely peremptory challenge by
Petitioner, because of the Court's failure to disclose
its receipt of campaign contributions from the
Respondent's counsel for over 18 months after the
donation, and surprisingly, until approximately
halfway through the initial period of trial of this
matter in September/October 2015, but before the
trial days conclude in April/May 2016, after having
served on the case since at least as early as
September 5, 2014, where said contributions in the
amount of at least $2000 were made by counsel of
record in the case -- Hanson, Crawford and Crum
Family Law Group - (hereinafter “Crawford Firm”)
on April 11, 2014 (see Exhibits A and B) and where
the Crawford firm had been counsel of record in the
case since at least as early as February 1, 2014, and
where the Court, Judge Susan Greenberg presiding,
should have disclosed pursuant to California Judicial
Canon 3, that the Crawford Firm made contributions
to her election campaign, at the first Mandatory
Settlement Conference held before the Court in the
Court's chambers on September 5, 2014, over twelve
(12) months before the Court's actual disclosure by

A88

the Court itself, of said campaign contributions made
by the Crawford Firm totalling $500 more than the
amount requiring mandatory disqualification by the
Court. It also turns out that one of Respondent's
other firms (she has 3 total) also contributed $500 to
the Court such that Respondent's counsel reaches
the statutorily-defined mandatory disqualification
threshold in this manner as well. The Court thus
acted contrary to California law in (1) failing to
timely disclose the contributions in accord with
Judicial Canon 3, (2) failing to disqualify, in accord
with California CCP Section 170, herself given that
the amount of the Crawford contributions exceed the
$1500 statutory threshold for mandatory
disqualification, and (3) failing to disqualify itself
because co-counsel Phil Silvestri, a member of a
different firm, not a member of the Crawford, but
similarly retained earlier in this case by Respondent,
also contributed $500 to Judge Greenberg's campaign
thereby exceeding the $1500 statutory threshold for
mandatory disqualification. As set forth in part
below, this situation severely prejudiced the
Petitioner and Quinn, Stella and Paxton, the three
children of his marriage to the Respondent,

A89

throughout the course of the Court's long period of
failure to comply with California law, and continues
to harm and prejudice them to this day. Since the
first half of trial of this matter has only been had
with respect to custody matters and proceedings are
currently set for April and May 2016 for continuation
of the trial with regard to other matters, including
financial issues, this motion is brought timely at the
earliest practicable opportunity during trial and the
Petitioner therefore moves the Court to disqualify
itself at this time pursuant to California Code of
Civil Procedure Sections 170.1 and 170.6 and asks
for the restoration of his due process right to
peremptory challenge going forward.

I.

The Court's Duty to Disclose Campaign
Contributions is Clear and Statutory
Petitioner does not bring this motion lightly.

As the Court knows, Petitioner is proceeding pro per
and has a very limited understanding of California
law in general or California family law in particular.
Nonetheless, Petitioner has worked for a good
portion of his life on issues relating to just and fair
due process for people all over the United States and

A90

believes the issue he now raises before the Court is
critical to the fair administration of justice in his
case and for the future cases of families who come
before the San Mateo Superior Court seeking a fair
and impartial hearing.
Petitioner wondered for many months why his
reasonable pleas for relief on seminal issues in this
case that were having detrimental impact on he and
his children were repeatedly rejected by the Court.
These included Petitioner's repeated requests for (1)
a complete, and medically-appropriate psychological
and medical evaluation of the eldest son of the
marriage, (2) an adequately-financed opportunity to
create a home for the children of the marriage that
was commensurate with the lifestyle during the
marriage and in keeping with the realities of the cost
of living in Silicon Valley, (3) attorneys' fees where
the Court was fully aware that Respondent had full
access to community property and as such was able
to pay up to at least seven (7) attorneys and support
staff at 3 separate firms while Petitioner was
deprived of access to community property and forced
to proceed pro per without counsel, (4) a fair custody
evaluation process that respected well-accepted

A91

principles of ethics and informed consent, and (5) fair
adjudication of many other critical issues in this
matter, including the rejection of Petitioner’s
subpoena for the custody evaluator’s notes and
underlying documents. Then, after overwhelmingly
adverse evidentiary rulings just prior to the
September/October 2015 custody trial where over 20
witnesses, including those relating to the issue of
recidivist abuse of his children by the Respondent's
father, were excluded by the Court, and a lengthy
seven (7) days of trial where Respondent had at least
2 or more attorneys representing her every single
day and Petitioner proceeded pro per, Petitioner
learned from the Court itself that the Court had both
received campaign contributions from the
Respondent's counsel and had failed to disclose them
in a timely manner as directed by Judicial Canon 3
and other relevant California laws.
Petitioner was surprised the Court did not
disclose these contributions upon the occasion of the
first Mandatory Settlement Conference in early
September 2014 when the Court directed Petitioner
to decide immediately whether he would exercise his
right to have another judge manage the pre-trial

A92

discovery and other matters in this case. Surely this
information would have been relevant at that time,
and the failure to disclose the contributions by
opposing counsel creates, at minimum, an
appearance of impropriety, where disclosure was not
made upon the Court's entrance into this case and
the Crawford Firm contributions of $2000.00 were
made on April 11, 2014, nearly 5 months before.
This deprived Petitioner of his peremptory challenge.
This information would also have been
relevant and should have been disclosed by the Court
at several other key inflection points in the case,
including by way of example, when the Court (Judge
Susan Greenberg presiding) announced in May and
June 2015 that, in a departure from established
procedure in the San Mateo courts, she herself would
preside over trial of the matter. To not disclose the
contributions by the Crawford Firm at that point, at
minimum, further added to the appearance of
impropriety. Among other inflection points, the
Court also had the opportunity to disclose the
contributions before the custody trial commenced on
September 28, 2015.

A93

As made evident in Petitioner's Declaration,
disclosure of these contributions would surely have
triggered Petitioner's exercise of his rights under
California law to have a different judge hear the
case. Petitioner and his children furthermore
suffered severe prejudice while the Court withheld
this information. For the reasons that follow,
Petitioner now respectfully requests the Court
attempt to correct this miscarriage of justice by
recusing itself from this case. In addition, before the
Court recuses itself, Petitioner also requests that the
Court order a new custody trial, vacate all of its prior
rulings and findings, and reset the various statutory
time limits and related directives relevant to
providing a clean slate for the new trial so that each
party has opportunity to have appropriate expert
witnesses, percipient witnesses and fact witnesses
testify at the new trial.
Under California Code of Civil Procedure
Section 170.1 (a)(6)(A), a judge shall be disqualified if
any one or more of the following are true: for any
reason (i) the judge believes his or her recusal would
further the interests of justice, (ii) the judge believes
there is a substantial doubt as to his or her capacity

A94

to be impartial, (iii) a person aware of the facts might
reasonably entertain a doubt that the judge would be
able to be impartial.

II.

The Court, Judge Greenberg presiding,
Should DQ/Recuse Itself Under 170.1(a)
In this case, the Court, Judge Susan

Greenberg presiding, failed to disclose campaign
contributions by opposing counsel for over a year and
did not do so until trial in this matter was well
underway. This is contrary to California law,
Judicial Canon 3(E)(2)(b)(iii) which states that
campaign contributions to trial judges shall be
disclosed “at the earliest reasonable opportunity
after receiving each contribution or loan. The duty
commences no later than one week after receipt of the
first contribution or loan and cotninues for a period of
two years after the candidate takes the oath of office,
or two years from the date of the contribution or loan,
which ever event is later.” [emphasis added].
Exhibits A, B and C hereto demonstrate that the
Crawford Firm and the Silvestri Firm, both counsel
to the Respondent, apparently made contributions to
Judge Greenberg totalling $2500.00 within the last

A95

two years.1 For over a year, the Court failed to
disclose these campaign contributions in violation of
California law. Judicial Canon 3(E)(2)(b)(iii).
This violation creates, at minimum, an
appearance of impropriety that satisfies California
CCP Section 170.1 (a)(6)(A), in that it creates
substantial doubt that Judge Greenberg can be
impartial and a reasonable person would entertain a
doubt that Judge Greenberg would be able to be
impartial. Judge Greenberg's recusal at this time
would truly further the interests of justice. The
Petitioner therefore respectfully requests the Court,
Judge Greenberg presiding, disqualify and/or recuse
itself.
III.

The Court, Judge Greenberg presiding.
Should DQ/Recuse Itself Mandatorily
According to records compiled by California

Secretary of State and attached hereto as Exhibits A
and B, Judge Greenberg received two separate
contributions in the amount of $1000.00 to her reelection campaign and both were dated April 11,
2014. Exhibit A reflects the first contribution with
transaction number 1852762-INC129 in the amount
of $1000.00. Exhibit B reflects the second

A96

contribution with transaction number 1838228INC129 in the amount of $1000.00. In addition, the
Silvestri Firm also made a contribution in the
amount of $500.00 and this is reflected in Exhibit C
as transaction 1852762-INC60. These amounts
when combined, exceed the statutory limit for
mandatory disqualification. The Court, Judge
Greenberg presiding should also DQ/recuse herself
on this basis as well under the Judicial Canon, and
the California Code of Civil Procedure Sections 170.1
(a)(9)(A).

IV.

The Court Should Restore Peremptory
Challenge Rights
The Court failed to disclose the campaign

contributions of opposing counsel as required by
California law. Petitioner was therefore deprived of
his rights to due process and the exercise of his
peremptory challenge under California Code of Civil
Procedure Section 170.6. The Petitioner also
respectfully requests that right be restored at this
time.

Declaration in Support of Motion

A97

I, Jeremiah “Jeremy” Manning, hereby declare:
1. I am over 18 years of age, and the
Petitioner in these actions. The matters stated
herein are known to me of my own personal
knowledge, or if so stated I am informed and believe
them to be true, and I am competent to offer this
testimony.
2. On February 28, 2016,1 saved a true
and correct copy of Exhibit A and B reflecting the
campaign contributions to Judge Susan Greenberg
for her 2014 election by the Crawford Firm. On
March 14, 2016, I printed the same, and also saved
and printed a true and correct copy of Exhibit C
reflecting the campaign contribution to Judge Susan
Greenberg for her 2014 election by the firm of
Silvestri, Silvestri & Milocq. Both firms have
represented the Respondent in this action and
Crawford Firm has represented the Respondent from
April 11, 2014 (the date of its contributions) through
the hearings and current continuing trial in this
matter to the present.
3. I, as Petitioner in this matter, and the
children of the marriage, have suffered substantial
and continuing harm and prejudice by the rulings in

A98

this case. Most recently, my eldest son suffered a
broken leg while skiing because the Respondent did
not supervise him and his grades have plummeted in
an number of subjects. For instance, his grades in
Science have gone from A+ to D+. My youngest son
is extremely angry and lashes out physically against
his brother and sister, and my daughter is beside
herself and is having difficulty with a number of
issues that result from the Court's decisions.
4. I, the Petitioner in this matter,
wondered for many months why my reasonable pleas
for relief on seminal issues in this case that were
having detrimental impact on he and his children
were repeatedly rejected by the Court. I have lost
every motion in this case, but one, and that motion
was only granted because of fraud by opposing
counsel (the one firm that did not make a
contribution in this case). These included my
repeated requests for (1) a complete, and medicallyappropriate psychological and medical evaluation of
the eldest son of the marriage, (2) an adequatelyfinanced opportunity to create a home for the
children of the marriage that was commensurate
with the lifestyle during the marriage and in keeping

A99

with the realities of the cost of living in Silicon
Valley, (3) attorneys' fees where the Court was fully
aware that Respondent had full access to community
property and as such was able to pay up to at least
seven (7) attorneys and support staff at 3 separate
, firms while Petitioner was deprived of access to
community property and forced to proceed pro per
without counsel, (4) a fair custody evaluation process
that respected well-accepted principles of ethics and
informed consent, and (5) fair adjudication of many
other critical issues in this matter such as this
Court’s denial of my request to enforce a subpoena
for the custody evaluator’s underlying notes and
materials so that I could fairly exercise my right to
cross-examination at trial.
5. After overwhelmingly adverse
evidentiary rulings just prior to the commencement
of trial in this matter on September/October 2015,
where over 20 witnesses, including those relating to
the issue of recidivist abuse of his children by the
Respondent's father, were excluded by the Court, and
a lengthy seven (7) days of trial where Respondent
had at least 2 or more attorneys representing her
every single day and Petitioner proceeded pro per, I

A100

learned from the Court itself that the Court had both
received campaign contributions from the
Respondent's counsel and had failed to disclose them
in a timely manner as directed by Judicial Canon 3
and other relevant California laws.
6. In May 2015, the Court, Judge Greenberg
presiding, announced that she would try the case in
this matter. I understand that it is unusual to have
the same Judge that presided over Mandatory
Settlement Conferences and pre-trial proceedings
also try the case. Just as in September 2014 and
continuing to the present, Judge Greenberg did not
disclose at that time that she had received campaign
contributions from my wife's attorneys in this case.
Had I known this, I would surely have exercised my
peremptory challenge and requested a new judge. I
understand that the Court should have disclosed the
campaign contributions of my wife's attorneys wellbefore this point in keeping with the Judicial Canons
of Ethics in California.
7. For these reasons, I respectfully request
this Court first to vacate all of its orders in this case
since September 5, 2014 in the interests of justice,
and order a new trial with regard to custody and

A101

support and related issues, and then recuse itself for
appearance of impropriety, mandatory disqualifying
cause and/or disqualify itself as a timely peremptory
challenge by Petitioner, because of the Court's failure
to disclose its receipt of campaign contributions from
the Respondent's counsel for over 18 months after
the donation.

I declare under penalty of perjury under the
laws of the State of California that the foregoing is
true and correct. Executed this 14th day of March, at
Palo Alto, CA.

s/JFM/
Jeremiah Manning

A102

EXHIBIT A

A103

® cal-access.s:0
STUB83 A STUBBS ATTORNEYS AT UW

&3<3k
1100 no

f

LAURf.N IORFAS

(J3'<

aaLto

MONETARY

S*NMATEO

CAfO*iOX

3/31/20T4

7/27/201*

1852702 IMC12J

!4S&5tefi&

fc&S

MONETARY

SAN CARLOS

CA/3*0?0

'fi-a-vr*
LAvY CFF-CES or LAUREN ZCftFAS

*.

ATTORNEY

53Krn3&n

^t7T*Tf j

*200 00

A/R/7014

7/27/20U

Iwrnitts&TFfiTKi

iiQ&LrWiS&i

V?\<

TIMOTHY WRKJHT

MONETARY

Ityv»-fi:a

MENLO PARK

CA/9i025

K=.'*V5i‘w

tar cmp'.oyhj :;amc named
■■7W- T,

ATJOHNLY

EeQgSB

sggjfi

7/27/20U

1852702INC127

*r?«

m&&J?

SAN MATEO

CA/M432

A/8?2CU

1100 00

1S5270MNC120

HANSON, CRAWFORD. CRUM FAMILY LAW
MONETARY
CROUP

ICTPBTl
CTyff?

wgrcysyr*

*1.000.03

4/11/20U

LAW OFFICE QF JOSEPH 20UCHA

MONET AKY

«iTKP)G
7/27/201*

I8527&MNCI29

Fj*V
HEOWOOOClTY

C* *14053

riivy»«Tsr*

<*2D2.

*/n/20*.*

7/27/201*

18S27021NC130

saragfeg

5¥#SS&»Si

P«V

CHARLES RIFFLE

MONETARY

g^Yvrrtf
*1400.00

1

REQWOCO CITY

CA/0SO62

msm

JHESS
| AARON, PIECHAPT, CARF'QL t ftff FLE

ATTORNEY

STO^ar

s
*1400.00

4.M1/23U

0\v£N YOCH

monetary

18577624NC131

7/27/201*

z*w
REDWOOD Cl 7Y

CA/iMrtM

t*a&Q*±Z

E£**Fg3
SAN MATEO COUNT Y SHERIFFS Off ICE

rr-crtv

jrmrjvisi-1

*100 00

4/18/201*

IAN YOUR TZ

MONETARY

SHERIFFS SERGEANT

,uPX,8'.i
7/27/201*

I852T02-INCI33

p*5>
MENLO PARK

ESOT*

ggghigi

SELF EMPLOYED {SAME NAME)

ATTORNEY

CA/0<025

jgzg»SB
*250,00

4/11/2014

A104

7/27/201*

18527S2TNC185

a

EXHIBIT B

A105

E cal-access.s; O
TTtTTTTUfT

JiuliiAl

TTssTSC&ntCTTT

~igsg>
REDY/OOOCiTY

CHARLES RIFFLE

^EBBT

CA/3*062

jj3Q3«.&&>
AARON. RIECHART, CARPOL ft R:FFIE

ter

INITIAL

11.000 00

j <yn/20i«

IATTORNEY
182822 &4NC131

'4/14/2014

pu&
redwooo&ty

LAW CfPKX or JOSEPH ZOUCHA

iioao.oo

INITIAL

|ca/«40&3

5E3

S5ggg3

4/<1/2014

pnvzou

I8382284MC13G

ms
HANSON. CRAWFORD. CRUM FAMILY LAW GROUP

itffitvTZ

SANMAfeO

CA/8J4P2

{jssaSKss
PsaST

fmS

ii.ooo.oo

INITIAL

{4/11/2014

£

"pST

[4/I4/2QM

IS382264NC123

mss&ssszsm

sIHWD
REDWOOD CITY

ANTHONY GIE8S

CA./34061

fsSjSs&r
SSF EMPLOYED (SAME NAME)

tjS£&

BBS

SI 000.00

1 initial

ATTORNEY

*tiW9

iwpM

?83?n2JNC»OG

4/8/3©! 4

pB

iTtTj

VIOLA LAW FIRM

SAN MATEO

Jca/susi

jteSjjST
^35^3

ySF
n/BO.OO

INITIAL

14/8/2014

STEVEN OYUMA

14/7/2014

?S3M32«HC50

UST

mme?

BURLINGAME

CA/94010

izlMim
STATE OF CALIFORNIA

SUPBHOB COURT JUDGE

EHST

SSuT

0;n>i«r^TiL

pssggx)

SLOOOOO

initial

4-7/2014

| 18364S2-INC89'

4W2014

WILUAMMAGLE

<8&

lgB3g>

SAN BRUNO

] CA/34066

a-gasisa

ggaiasa
sar EMPLOYED (SAME NAME)

SPECIAL MASTER/MEDIATOR

fF'JtW

mZs.

6j®BT— imsk>

*1.000.00

INITIAL

4/7/2014

18364324NC88

gasgsssgas^

m

gass?

UW OFFICES OF ROSS. HACKFTT, DOLING. VALENCIA ft
WAl.1l

SAN BRUNO

.4/07314

55T
Si 000.00

CA/940G5

in

3Z3SSINITIAL

|pj?^JjgLg
4/07014

Eiaggg
47/7014

A106

«uZ23D
pfiswIwNCfeT

3

EXHIBIT C

A107

fc; -

SL

I1 LL~*-

[SSSMMSK
SCLf EMPLOYEO(SAME NAME)

rcr^ira
S100.00

3/2 8/201*

£73

ATTORNEY

PT«I3

tuEjii-X;

7/27/2014

18S2762-JNCS8

|33p

EDWARD R. ROJAS

MONETARY

Rcovvooo avr

CA/94063

aatacssa
SELF EM3LOVEO (SAME NAME)

ATTORNEY

<100.00

3/2S/7014

7P.V10U

SJLVESTR] SILVESTRJ R MlAiOCQ, A.
P.C

MONETARY

REDWOOO QTY

S500.00

3/28/2014

7/27/2014

KRISTI SPENCE

MONETARY

bscsq
JB52762-JNCS9

Fig?

m&mm

smzm

gg!g*E3 ■

SSmuiLiafl

GV94053

fghifZftla

18527G2-1NCG0

B®

KSggjB

SAN MATEO

CA/94402

gggggg
SELF EMPLOYED (SAME NAME)
kj

*100,00

3/29/2014

GIL OS VINCEN2I

MONETARY

ATTORNEY

I57*?»xSS5>3
7/27/2014

jfcrcOia
19S2762-INC61

mz
mxrn$m ■■ feiasa

SAN CARLOS

DIRECTOR FACILITIES

KAL0B10S

'""imMees
SS00JJ0

GESila azua

3/24/2014

iC»L'

CA/94070

&&&&&&
i?
7/27/2014

aaaaa«a IBB?

A108

1BS27G2-INCS3

mss®

I

APPENDIX F

A109

IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION ONE
Docket No. A149875
JEREMIAH F. MANNING,
Plaintiff-Appellant,
vs.
LUCY J. KIM,
Defendant-Respondent.
On Appeal From The
Superior Court For The County Of San Mateo
The Honorable Susan M. Greenberg, Judge
Case No. FAM123613/123714

APPELLANT MANNING’S PETITION FOR
REHEARING
DAVID B. EZRA, ESQ. (SBN 149779)
KEITH DOLNICK, ESQ. (SBN 275780)
BERGER KAHN
2 Park Plaza, Suite 650
Irvine, California 92614-8516
Telephone: (949) 474-1880
Attorneys for Appellant-Petitioner
JEREMIAH F. MANNING

A110

TABLE OF CONTENTS
I.
II.

INTRODUCTION...............

4

FACTUAL STATEMENT

10

III. CONSTITUTIONAL DUE PROCESS AND
EQUAL PROTECTION REQUIRED TIMELY
AND PROPER DISCLSOURE.............................. 15
A. CALIFORNIA LAW REQUIRED JUDGE
GREENBERG TO DISCLOSE CAMPAIGN
CONTRIBUTIONS “AT THE EARLIEST
REASONABLE OPPORTUNITY”.................... 15
B. CALIFORNIA LAW GAVE APPELLANT A
RIGHT TO PEREMPTORY CHALLENGE 23
C. IN THIS CASE, SECTION 170.1’S
INDEPENDENT AND
SEPARATE
PROVISION FOR DISQUALIFICATION
MUST BE CONSIDERED TO ENSURE
REVIEW................................................................ 26
D. SECTION 170
DISQUALIFICATION
PROVISIONS, WHEN
READ TOGETHER,
WARRANT REVERSAL AND A NEW
TRIAL FOR APPELLANT............................... 29
E. PROCEDURAL DUE PROCESS - AS
GUARANTEED BY THE UNITED STATES
CONSTITUTION - WAS DENIED TO THE
APPELLANT...................................................... 30
F. EQUAL PROTECTION OF STATE LAWAS GUARANTEED BY THE UNITED
STATES CONSTITUTION - WAS ALSO
DENIED TO APPELLANT UNDER SECTION
35
170 ANALYSIS

Alll

IV.
EQUAL PROTECTION UNDER THE
UNITED STATES CONSTITUTION
REQUIRED JUDGE GREENBERG
TO
RECUSE HERSELF, JUST AS SHE DID IN
THE STUPP CASE................................................... 36
V.

CONCLUSION.................................................. 37

TABLE OF AUTHORITIES
Cases
32
Boddie v. Connecticut..........................
32, 33
Little v. Streater, 451 U.S. 1 (1981)...
32,35
M.L.B. v. S.L.J., 519 U.S. 102 (1996)
Marriage of Stupp & Schilders, 216
10, 13, 14, 36
Cal.App.Unpub.LEXIS 8136..........
24
Marshall v. Jerrico, Inc., 446 U.S. 238 (1980)
32
Matthews v. Eldridge.........................................
8
People v. Hull, 1 Cal.4th 266 (1991),................
31
Raley v. Ohio, 360 U.S. 423, 436 (1959).........
24
Schweiker v. McClure, 456 U.S. 188 (1982)....
31
Tumey v. Ohio, 273 U.S. 510 (1927)................

Statutes

15, 23
170.3...................................................................
9
California Rules of Court Rule 8.268...........
. 19, 20
Canon 3E of the Code of Judicial Ethics......
passim
section 170.1............................................... .....
section 170.6 of the California Code of Civil
passim
Procedure.......................................................
18
Section 84211 of the Government Code.......
Ward v. Village of Monroeville, 409 U.S. 47 (1972) 24,
26,31

A112

I.

INTRODUCTION
There are very few situations that might cause

the public to seriously question the appearance that
a judge is a neutral finder of fact and an impartial
applier of the law. One of these situations is where a
judge accepts campaign contributions from the
attorneys for one party appearing before her, and not
from the other. The appearance of impartiality can
be further threatened when a judge is required to
disclose the campaign contributions, but does not do
so in an accurate or timely manner. Ultimately,
neither the appearance of neutrality, nor
constitutionally-protected rights to fairness, equal
protection and due process can be served by judges
withholding campaign contribution information from
parties for months when they are lawfully required
to disclose it “at the earliest reasonable opportunity.”
In California, the withholding of campaign
contribution information above $100 by a judicial
officer is contrary to law.
Recognizing the potential for campaign
contributions and their disclosure to affect the
public’s confidence that a judge is neutral and the

A113

law is being fairly applied, in recent years the
California legislature passed, and Governor Jerry
Brown signed into law, amendments to California
Code of Civil Procedure section 170. These
amendments require each California Superior Court
judge to disclose all campaign contributions above
$100 from parties or their attorneys with matters
before them to opposing parties and their attorneys
“at the earliest reasonable opportunity after
receiving each contribution.”
The statute directs all judges to do this in open
court on the record or as a minute order, and
requires complete disclosure of all information
specified in the statute. Significantly, California law
does not make the necessary campaign contribution
disclosure obligation dependent on a non­
contributing party’s due diligence. Rather it is solely
a judicial obligation, and as such, this judicial
obligation is also incorporated in the California
Judicial Code at Canon 3(E), in addition to status as
current and valid state law (CCP §170). Importantly,

A114

these are remedial statutes that must be construed
broadly in the public interest.
In this case, it is undisputed that the trial
judge, Hon. Susan Greenberg, took campaign
contributions from the Respondent’s attorneys in
amounts well over $100. She received these
contributions in April 2014. She started presiding
over this case several months later, in August 2014.
Between August 2014 and the commencement
of trial in late September 2015, Judge Greenberg had
both the obligation and numerous opportunities to
disclose the campaign contributions. She did not
follow the law. She did not disclose the campaign
contributions. Instead, Judge Greenberg withheld
this information while denying motion after motion,
depriving Mr. Manning of the attorneys’ fees he
desperately needed to litigate his case through
experienced counsel. Judge Greenberg rejected Mr.
Manning’s witnesses, while allowing all of Dr. Kim’s
trial witnesses.
Judge Greenberg also refused to enforce a pre­
trial subpoena for the custody evaluator’s source

A115

documents, depriving Mr. Manning of meaningful
cross-examination. Judge Greenberg then continued
to unlawfully withhold the campaign contribution
information, despite the ongoing disclosure
obligation, through settlement negotiations, the start
of trial, during opening statements, and after the
taking of days and days of testimony.
Among other things, this deprived Mr.
Manning of the fair exercise of his state right to
peremptory challenge. Enacted in 1982, this right to
the peremptory challenge of a judge is codified at
section 170.6 of the California Code of Civil
Procedure (Governor Jerry Brown presided over both
the creation of California’s judicial peremptory
challenge right and the later campaign contribution
disclosure amendments mentioned above.)
While the fair exercise of this peremptory
challenge right is supposed to be afforded all
litigants in California, here it was not. The
Appellant was denied the full and fair exercise of his
section 170.6 peremptory challenge right because
Judge Greenberg failed to fully, completely and

A116

timely disclose campaign contributions as she is
required to do under section 170.1.
Reading these two statutory passages
together, this Court should determine that it is
neither just, nor procedurally fair, to only enforce a
part of the law. These two passages (§170.1 and
§170.6) are from the same Part, Title and Chapter of
California law and they are interdependent and
meant to be read together, and fairly applied
together.
Mr. Manning is entitled to this procedural
fairness and equal protection under both the United
States Constitution and California state law. Mr.
Manning was denied important rights because of
Judge Greenberg’s failure to follow the law.
Significantly, this is not a case such as People
v. Hull, 1 Cal.4th 266 (1991), where the litigant’s
section 170.6 peremptory challenge was actually
heard and decided by the trial court. Rather, in this
case, Appellant never made his section 170.6
peremptory challenge -- and it was never heard or
decided at the trial level -- all because Judge

A117

Greenberg did not follow the law and did not timely
disclose the campaign contributions made to her by
the other side in this litigation “at the earliest
reasonable opportunity.”
Pursuant to California Rules of Court Rule
8.268, Appellant respectfully requests re-hearing
because this Court’s April 10, 2019 opinion neglects
to address, discuss or decide whether Judge
Greenberg’s failure to accurately and timely disclose
campaign contributions in contravention of state law
denied Appellant due process by withholding critical
information necessary to making a peremptory
challenge decision, and whether her related conduct
violated Appellant’s constitutional right to equal
protection of the law.
The Appellant asks: should a California
Superior Court Judge be allowed to pick and choose
when to disclose campaign contributions and how
much to disclose in contravention of the law, and
thereby manipulate or at least significantly impair
the disqualification procedures, denying a litigant
due process and equal protection in contravention of

A118

the same state statute that prescribes the procedures
for disqualification? The Appellant believes the
answer is no, and since he raised his section 170.6
right squarely in Appellant’s Opening Brief (AOB at
23, 47-53), by this rehearing petition he invites the
Court to consider and rule on this question of first
impression that concerns the interplay of the
campaign contribution disclosure provision found at
CCP section 170.1 and the peremptory challenge
provision found CCP §170.6.
Mr. Manning also raises U.S. Constitutional
issues of due process and equal protection that were
similarly raised (AOB 46-48) with regard to this
issue and with regard to Judge Greenberg’s decision
to recuse herself in the Marriage of Stupp &
Schilders, 216 Cal.App.Unpub.LEXIS 8136, but
glaringly, not in this case.
II.

FACTUAL STATEMENT
The trial court judge in this matter, Hon.

Susan Greenberg, was elected as Superior Court
Judge in San Mateo County in June 2014, just a few
months prior to being assigned this case. During her

A119

campaign for Superior Court Judge, public records
indicate that Judge Greenberg accepted campaign
contributions. They indicate that she received
$2,000 in campaign contributions from Joseph
Crawford, Esq. and his law firm Hanson Crawford
Crumm. Mr. Crawford and the Crawford firm were
the lead attorneys representing the Respondent, and
represented her through the entirety of the pre-trial
and trial proceedings in this matter.
Public records show that Judge Greenberg
received these campaign contributions from the
Crawford attorneys on April 10, 2014 and that she
was assigned this case in late August 2014. She then
conducted the first mandatory status conference on
September 5, 2014 with the parties and the
Respondent’s attorneys, including the Crawford firm.
She could have made lawful disclosure of the
Crawford’s firm’s significant campaign contributions
at that time. However, she made no disclosure
whatsoever. Judge Greenberg could also have issued
a minute order making the disclosure in the days and
weeks that followed. She did not.

A120

In fact, at no time during the assignment of
the case to her, or at the first status conference with
the parties, or at the numerous pre-trial appearances
that followed over the next 13 months where she
heard and decided litigated issues, did Judge
Greenberg disclose the fact that she had received
$2500 in campaign contributions from Respondent’s
lead attorneys. She did not make the disclosure prior
to opening statements at trial in September 2015,
the last possible time at which, under the statute,
the Appellant could have made a section 170.6
peremptory challenge.
Throughout this period of time where required
disclosure was not being made, as this Court has
noted, Judge Greenberg also repeatedly denied
Appellant attorneys’ fees. She also excluded all of
Appellant’s witnesses while allowing all of
Respondent’s, and refused to enforce the subpoena
for the custody evaluators source records, thus
depriving Appellant of meaningful crossexamination.

A121

Contemporaneous with Judge Greenberg’s
ongoing failure to disclose the campaign
contributions from the Crawford firm, she was also
assigned to another marriage dissolution proceeding,
Marriage of Stupp & Schilders, 216
Cal.App.Unpub.LEXIS 8136. In the Stupp case, she
also accepted campaign contributions from only one
party’s attorneys that she also failed to disclose to
the other party in compliance with California law. In
the Stupp case, both parties were represented by
experienced family law attorneys admitted to the
California bar.
As set forth in Appellant’s opening brief, Judge
Greenberg eventually recused herself from the Stupp
case after the attorneys who had not donated to her
campaign for Superior Court Judge objected to her
failure to disclose the campaign contributions from
opposing counsel. (AOB, 46).
Trial commenced in this case on September 28,
2015, just over 13 months after Judge Greenberg was
assigned to it. The trial spanned 9 months and took
approximately 15 days. At no time during this

A122

period did Judge Greenberg recuse herself as she had
done in the Stupp case.
Judge Greenberg bifurcated trial such that
custody was tried first. Immediately prior to the
commencement of the custody phase of trial Judge
Greenberg presided over extensive settlement
discussions between Appellant and the Crawford
firm. At no time during these discussions did she
disclose the campaign contributions from the
Crawford firm. She continued to improperly
withhold the campaign contribution disclosure
through opening statements and through days and
days of trial from late September 2015 until late
October 2015.
When Judge Greenberg finally disclosed the
campaign contributions from the Crawford firm in
the last days of the custody trial, she again did not
follow the law regarding required disclosure. She
made an incomplete and inaccurate disclosure and
she never fully corrected her disclosure as required
by law in a minute order or on the record in open
court.

A123

Judge Greenberg did make certain corrections
to her late October 2015 campaign contribution
disclosure when she struck Appellant’s 170.3
disqualification motion. However, these corrections
still did not bring her disclosure into compliance with
California law or the judicial canons.
III. CONSTITUTIONAL DUE PROCESS AND
EQUAL PROTECTION REQUIRED TIMELY
AND PROPER DISCLSOURE
As explained above, an issue the opinion
neither addressed nor mentioned was the fact that
Judge Greenberg’s failure to timely disclose
precluded Mr. Manning from exercising his
peremptory challenge under Section 170.6 of the
California Code of Civil Procedure.
A.

CALIFORNIA LAW REQUIRED
JUDGE GREENBERG TO
DISCLOSE CAMPAIGN
CONTRIBUTIONS “AT THE
EARLIEST REASONABLE
OPPORTUNITY”

Judge Greenberg was required by law to
disclose the campaign contributions to her from the
Crawford firm because they were well in excess of

A124

$100. As will be demonstrated below, she was
required to make this disclosure “at the earliest
reasonable opportunity,” and as we will see, a fair
and constitutionally-valid interpretation of this
standard means that she should have done this
before Appellant had to exercise his peremptory
challenge.
California Code of Civil Procedure §170.1 is
entitled “Disqualification of Judges” and the relevant
passages state:
(a) A judge shall be disqualified if
any one or more of the following
are true:
(9) (A) The judge has received a
contribution in excess of one
thousand five hundred dollars
($1500) from a party or lawyer in
the proceeding, and either of the
following applies: (i) The
contribution was received in
support of the ju dge’s last
election, if the last election was
within the last six years.(ii) The
contribution was received in
anticipation of an upcoming
election. (B) Notwithstanding
subparagraph (A), the judge

A125

shall be disqualified based on a
contribution of a lesser amount if
subparagraph (A) of paragraph
(6) applies. (C) The judge shall
disclose any contribution from a
party or lawyer in a matter that
is before the court that is
required to be reported
under subdivision (f) of
Section 84211 of the
Government Code, even if
the amount would not
require disqualification
under this paragraph. The
manner of disclosure shall be
the same as that provided in
Canon 3E of the Code of
Judicial Ethics.
(D) Notwithstanding paragraph
(1) of subdivision (b) of Section
170.3, the disqualification
required under this paragraph
may be waived by the party that
did not make the contribution
unless there are other
circumstances that would
prohibit a waiver pursuant to
paragraph (2) of subdivision (b)
of Section 170.3.
California Code of Civil Procedure, §170.1(a)(9.
The emphasized language of Section 170(a)(9
above makes reference to two other statutes/codes.
The first is subdivision (f) of Section 84211 of the

A126

Government Code and reference to it reveals that
any amount of campaign contribution over $100 must
be disclosed by a judge to a non-contributing party,
even if it does not ultimately result in
disqualification:
(f) If the cumulative amount of
contributions (including loans)
received from a person is one
hundred dollars ($100) or more
and a contribution or loan has
been received from that person
during the period covered by the
campaign statement, all of the
following:
(1) His or her full name.
(2) His or her street address.
(3) His or her occupation.
(4) The name of his or her
employer, or if self-employed, the
name of the business.
(5) The date and amount received
for each contribution received
during the period covered by the
campaign statement and whether
the contribution was made in the
form of a monetary contribution,
in-kind contribution of goods or
services, or a loan.

A127

(6) The cumulative amount of
contributions.
Cal. Gov’t Code, § 84211(f).
Most significant for this case, section 170.1
campaign contribution disclosure is prescribed in
C.C.P. §170.1(a)(9) as “the same as that provided in
Canon 3E of the Code of Judicial Ethics.” Turning
therefore to Canon 3E of the California Code of
Judicial Ethics, we find that it is entitled
“Disqualification and Disclosure” and it states:
(1) A judge shall disqualify
himself or herself in any
proceeding in which
disqualification is required by
law.
(2) In all trial court
proceedings, a judge shall
disclose on the record as
follows:

(iii) Timing of disclosure
Disclosure shall be made at
the earliest reasonable
opportunity after receiving
each contribution or loan.

A128

The duty commences no later
than one week after receipt of
the first contribution or loan,
and continues for a period of
two years after the candidate
takes the oath of office, or two
years from the date of the
contribution or loan, whichever
event is later.
California Code of Judicial Ethics, Canon 3(E)
[emphasis added],
Reading the plain language of the California
Code of Judicial Ethics Canon 3(E) together with
section 170.1(a)(9) necessitates an inexorable
conclusion: Judge Greenberg had a duty to disclose
the campaign contributions she received from the
Crawford firm “at the earliest reasonable
opportunity” to the Appellant.
The Crawford firm made their contributions
on April 10, 2014 and Judge Greenberg was assigned
to this case in August 2014. She could have disclosed
the Crawford contributions at the first mandatory
status conference on September 5, 2014 when she
met with the parties, but she did not. She could have
disclosed it when she was denying Appellant’s

A129

motion for additional child and spousal support on
December 9, 2014, but she did not. She could have
disclosed it at the second mandatory status
conference in early January 2015, but she did not.
She could have disclosed it at the March 2015
hearing where she imposed sanctions on Appellant
for making requests for documents that the
Respondent’s attorneys secreted and later sought to
introduce at trial, but she did not. She could have
disclosed it when she took away Appellant’s custody
in March 2015 because of the misrepresentations of
Respondent’s attorneys, but she did not. She could
have disclosed it when she restored Appellant’s
custody in May 2015 because of Respondent’s
attorneys’ misrepresentations, but she did not. She
could have disclosed it at the hearing when she
refused to enforce Appellant’s valid subpoena for the
custody evaluator’s source documents, but she did
not. She could have disclosed it in early September
2015 when she excluded all of Appellant’s witnesses
and admitted all of Respondent’s witnesses, but she
did not. She could have disclosed it in late

A130

September 2015 when she presided over settlement
discussions between the Appellant and the Crawford
firm, but she did not. She could have disclosed it
prior to opening statements at trial in late
September 2015, but she did not. She could have
disclosed it at any time during the days and days of
trial in late September and October 2015, but she did
not. She did not disclose the campaign contributions
until late October 2015, and when she did, she did so
inaccurately, and misrepresented them.
Judge Greenberg had numerous opportunities
to comply with the law and disclose the Crawford
firm’s campaign contributions, but she did not until
trial was well underway. Her conduct does not
comport with due process, equal protection or the fair
application of CCP Section 170 and it deprived
Appellant of the fair exercise of his state peremptory
challenge right.

A131

B.

CALIFORNIA LAW GIVES
APPELLANT A RIGHT TO
PEREMPTORY CHALLENGE

California law guarantees a party the right to
a judicial peremptory challenge. California Code of
Civil Procedure section 170.6 provides all litigants in
Superior Court with an unfettered right to a judicial
peremptory challenge that is in addition to their
section 170.3 right to removal for cause. In its April
10, 2019 opinion, this Court only considered
Appellant’s section 170.3 right and did not even
mention Appellant’s section 170.6 right, even though
he squarely and explicitly raised it. Section 170.6
has several subsections, but two are central to
Appellant’s appeal and this petition for rehearing.
The first is section 170.6(a)(1), which guarantees
Appellant a neutral judicial officer:
A judge, court commissioner, or
referee of a Superior Court of
the state of California shall not
try a civil or criminal action or
special proceeding of any kind
or character, nor hear any
matter therein that involves a
contested issue of law or fact
when it is established as

A132

provided in this section that the
judge or court commissioner is
prejudiced against a party or
attorney appearing in the action
or proceeding.
Cal. Civ. Proc. Code § 170.6(a)(1).

This first statutory provision codifies the
bedrock guarantee to a neutral and impartial judge
embedded in our United States Constitution. See,
e.g., Ward v. Village of Monroeville, 409 U.S. 47
(1972) (impartiality of judicial officer an essential
predicate for constitutional due process and even a
statutory disqualification procedure is not enough to
correct prima facie prejudice); See also Schweiker v.
McClure, 456 U.S. 188 (1982); Marshall v. Jerrico,
Inc., 446 U.S. 238 (1980).

The second central provision of the peremptory
challenge statute is section 170.6(a)(2), which in the
first sentence sets forth the predicate by which a
party must establish the prejudice:

A133

A party to, or an attorney
appearing in, an action or
proceeding may establish this
prejudice by an oral or written
motion without prior notice
supported by affidavit or
declaration under penalty of
perjury, or an oral statement
under oath, that the judge,
court commissioner, or referee
before whom the action or
proceeding is pending, or to
whom it is assigned, is
prejudiced against a party or
attorney, or the interest of the
party or attorney, so that the
party or attorney cannot, or
believes that he or she
cannot, have a fair and
impartial trial or hearing
before the judge, court
commissioner, or referee.
Cal. Civ. Proc. Code § 170.6(a)(2) [emphasis added].
This sub-section then goes on to set forth the
various time frames and deadlines for bringing a
section 170.6 motion.
In this case, Judge Greenberg did not make
any disclosure of campaign contributions to
Appellant prior to the expiration of these deadlines
as she was required to do under section 170.1.

A134

Appellant’s position is that he, and indeed probably
any reasonable person in a marriage dissolution
proceeding, upon receiving a timely and accurate
disclosure that the judicial officer had received
thousands of dollars in campaign contributions from
opposing counsel, would have exercised his state
right to a peremptory challenge of that judge.
Additionally, for the purposes of evaluating
whether Appellant received due process, Appellant
maintains that Judge Greenberg’s failure to follow
the law on campaign finance disclosure represent a
prima facie case of prejudice as that term is defined
in the statute and under the United States
Constitution. Ward v. Village of Monroeville, 409
U.S. at 48-49; C.C.P. § 170.6.
C.

IN THIS CASE, SECTION 170.1’S
INDEPENDENT AND
SEPARATE PROVISION FOR
DISQUALIFICATION MUST
BE CONSIDERED TO ENSURE
REVIEW

Returning to Section 170.1 for the moment, we
can additionally see that C.C.P. §170.1(a)(9)(B)
provides an independent and separate basis for

A135

review of disqualification where a judge unlawfully
failed to disclose campaign contributions and a party
was thus denied his peremptory challenge right.
This provision states:
(B) Notwithstanding
subparagraph (A), the
judge shall be
disqualified based on a
contribution of a lesser
amount if subparagraph
(A) of paragraph (6)
applies.
Cal. Civ. Proc. Code § 170.1(a)(9)(B).

Additionally, subparagraph (A) of paragraph
(6) states:
(a) A judge shall be
disqualified if any one
or more of the
following are true:
(6) (A) For any reason:
(i) The judge believes his
or her recusal would
further the interests of
justice.

A136

(ii) The judge believes
there is a substantial
doubt as to his or her
capacity to be impartial.
(iii) A person aware of
the facts might
reasonably entertain a
doubt that the judge
would be able to be
impartial.
California Code of Procedure §170.1(a)(6)(A).
Reading these statutory passages together,
there are two facts in this case that require a
reviewing Court to conduct a due process review and
reach the question of whether Judge Greenberg
should have been disqualified under section (6)(A)(ii)
or (iii), or recused herself under (6)(A)(i): first, Judge
Greenberg did not follow the law and disclose the
campaign contributions and second, this deprived
Appellant of the fair and full exercise of his
peremptory challenge right so that it was never
brought or heard. Since there was an unlawful
action on the part of Judge Greenberg, and since
Appellant’s peremptory challenge was never brought
or decided by her, this Court has the responsibility to
review the matter and conduct a due process

A137

analysis. This Court should conduct this review and
analysis, and given the facts, all three of the
subsections (6)(A)(i), (6)(A)(ii) and (6)(A)(iii) warrant
recusal/disqualification.
D.

SECTION 170
DISQUALIFICATION
PROVISIONS, WHEN
READ TOGETHER, WARRANT
REVERSAL AND A NEW
TRIAL FOR APPELLANT

When the aforementioned statutory provisions
of California Code of Procedure Section 170 are read
together, the question whether a party’s due process
right to an impartial and neutral judicial officer is
violated where a Superior Court Judge unlawfully
fails to disclose campaign contributions and deprives
Appellant of the fair exercise of his peremptory
challenge must be answered affirmatively. Here,
Judge Greenberg did not disclose the campaign
contributions from the Crawford firm totaling well
over $100 as she was legally required to do.
Appellant therefore did not have information that
was required for him to make a fair judgment about
exercising his peremptory challenge right, and

A138

therefore this does not meet the conditions for
procedural due process.
This Court has the opportunity to therefore
review whether Judge Greenberg’s conduct evinces
that of an impartial judicial officer as required by
California law, by the California Judicial Canons and
by the public interest in justice. The Appellant
submits that Judge Greenberg’s delay in disclosing
the campaign contributions, her inaccurate, untimely
and incomplete disclosure of the campaign
contributions, and the litany of rulings she made
against the Appellant demonstrate that she was
neither impartial nor neutral. Appellant therefore
respectfully requests a new trial and that Judge
Greenberg be disqualified and her orders vacated.
E.

PROCEDURAL DUE PROCESS AS GUARANTEED BY THE
UNITED STATES CONSTITUTION
- WAS DENIED TO THE
APPELLANT

In addition to the California state statutory
provisions, this Court also should consider on
rehearing that Judge Greenberg’s conduct in this

A139

case does not meet the standards for procedural due
process under the United States Constitution. Raley
v. Ohio, 360 U.S. 423, 436 (1959). In the first
instance, there is serious question whether a judge
that has accepted pecuniary benefit in the form of
campaign contributions from one side’s attorneys and
not from the other can be considered impartial in the
absence of a waiver by the non-contributing party.
Tumey v. Ohio, 273 U.S. 510 (1927). In Tumey, the
Supreme Court set down the rule that payments for
the benefit of a judicial officer that would offer a
“possible temptation” to the average man to rule one
way or the other result in a lack of due process of
law. Tumey, at 532-34. Here, it is undisputed that
Judge Greenberg received campaign contributions
totaling well over $100, and then failed to follow the
state of California’s statutory scheme to disclose
these contributions. As discussed above, there is a
strong argument that this is prima facie prejudice
and therefore constitutionally deficient. See Ward v.
Monroeville, supra at 61(“[e]ven appeal and trial de
novo will not cure a failure to provide a neutral and

A140

detached adjudicator”).
The circumstances of this case evidence that
Appellant was denied procedural due process under
the United States Constitution. The standard of
review for procedural due process in state law cases
involving child custody was elucidated by the
Supreme court in Little v. Streater, 451 U.S. 1 (1981).
Building on the Matthews v. Eldridge and Boddie v.
Connecticut decisions, the Supreme Court’s analysis
first considered whether due process involving
custody should receiving a heightened level of
scrutiny since it concerns such a fundamental human
right. See Matthews v. Eldridge, 424 U.S. 319 (1976);
Boddie v. Connecticut, 401 U.S. 371 (1971). See also
M.L.B. v. S.L.J., 519 U.S. 102 (1996) (“the interest of
parents in their relationship with their children is
sufficiently fundamental to come within the finite
class of liberty interests protected by the Fourteenth
Amendment,” Ginsberg, J.). The Supreme Court was
unanimous in finding that it should. Little, 452 U.S.
at 5-12. The Court next applied the second factor:
the likelihood the case would not be fairly adjudged

A141

given the lower court’s application of the procedures
involved. The Court found the risk “not
inconsiderable.” Id. at 13-16. Finally, the Court
applied the third factor: whether the State of
Connecticut would be unduly burdened by requiring
that fairness be enforced, and found that it would
not, even though it would have to bear the cost of a
diagnostic paternity test. Id.
Here, it is undisputed that the core issue of
Appellant’s case is custody and involves his
relationship with his children. This satisfies the first
part of the Supreme Court’s test because this is one
of the most compelling private interest. Second, for
the State of California to have a statute that requires
judicial officers to disclose campaign contributions in
both its civil procedure and judicial canons, and then
not enforce it when it deprives a party of the fair
exercise of a state right to peremptory challenge,
would be certain render the peremptory challenge
right null and void in many cases. This situation
would also be virtually certain to create a high risk
that other judges would not bother to follow the law,

A142

would not disclose campaign contributions in timely
fashion (if at all), and thus would result in many
litigants being denied a fair trial by an impartial
adjudicator and being denied the fair exercise of their
peremptory right. This meets the Appellant’s burden
on the second factor. Finally, as to the third factor,
the cost to California would be negligible, since
disclosure of campaign contributions by the judicial
officer costs nothing except the Superior Court
Judge’s time and attention.
There is no doubt that Judge Greenberg
accepted campaign contributions and did not disclose
them as prescribed by statute until after Appellant’s
window for the fair exercise of his peremptory
challenge right had closed. If this Court were to
allow this to stand, then there is serious risk to the
perceived impartiality of the judicial system. It is
also not clear how appellate review of this issue could
be avoided. The Appellant would be denied
procedural due process since this review is offered for
other instances of Section 170 violations. For these
reasons, Appellant requests that a new trial be

A143

granted and that Judge Greenberg’s orders be
vacated because of this constitutional defect.
F.

EQUAL PROTECTION OF STATE
LAW - AS GUARANTEED
BY THE UNITED STATES
CONSTITUTION - WAS ALSO
DENIED TO APPELLANT UNDER
SECTION 170 ANALYSIS

A party’s right to Equal Protection of the laws
under the United States Constitution is regarded as
the twin of the procedural due process right and
Justice Ginsberg has noted that these principles
often converge. M.L.B. at 116. As noted above, in
this case there is heightened scrutiny because of the
compelling private interest. Further, there is a high
risk that if this Court refuses to enforce the
campaign contribution disclosure provisions, some
litigants would have the full benefit of section 170
procedures and others would not. This is both unfair
and contrary to the requirements that all receive
equal protection of state law. This is another basis
for Appellant’s requests that a new trial be granted
and that Judge Greenberg’s orders be vacated.

A144

IV.

EQUAL PROTECTION UNDER
THE UNITED STATES
CONSTITUTION REQUIRED
JUDGE GREENBERG
TO RECUSE HERSELF, JUST AS
SHE DID IN THE STUPP CASE
As set forth in the Appellant’s Opening Brief,

during this litigation, Judge Greenberg also was
assigned the Stupp case (another marriage
dissolution and custody matter where the attorneys
for one party made significant campaign
contributions to her, and the other did not). (AOB
46-48). When this fact was uncovered by the non­
contributing attorneys, Judge Greenberg opted to
apply Section 170 differently and recused herself in
the Stupp case, even though the situations were the
same as this case: her improper failure to timely
disclose campaign contributions. As set forth in the
opening brief, and under the Constitutional Due
Process and Equal Protection law set forth above,
this resulted in her unfair and unequal application of
Section 170 to the Appellant’s case.

A145

CONCLUSION

V.

Mr. Manning respectfully asks this Court to
grant rehearing to review his argument relating to
the issues raised in this petition and in his opening
brief, particularly the fact that the improper failure
to timely disclose campaign contributions deprived
him of an opportunity to exercise a peremptory
challenge under section 170.6. The Court should
reverse the September 14, 2016 judgement, so that a
truly neutral judge can decide the child custody
issues.

Respectfully Submitted By:

s/DBE/

DAVID B. EZRA
Attorney for Jeremiah F. Manning Appellant

A146

CERTIFICATE OF WORD COUNT
Pursuant to rule 8.204(c) of the California
Rules of Court, I hereby certify that this brief
contains 5,618 words. In making this certification, I
have relied on the word count of the computer
program used to prepare the brief.
By:

s/DBE/

DAVID B. EZRA

Attorney for
Jeremiah F. Manning Appellant

A147

